                                     TVA RESTRICTED INFORMATION




Memorandum from the Inspector General, ET 4C-K



March 12, 2012

Those listed on page 3

AUDIT 2011-14340 – TVA FISCAL YEAR 2011 COMPLIANCE WITH THE IMPROPER
PAYMENTS INFORMATION ACT OF 2002 AS AMENDED BY THE IMPROPER
PAYMENTS ELIMINATION AND RECOVERY ACT OF 2010



The Office of the Inspector General performed an audit of the Tennessee Valley Authority’s
(TVA) compliance with the Improper Payment Information Act (IPIA) for fiscal year (FY)
2011. The Act requires each agency’s Inspector General to submit the results of their
assessment of the agency’s compliance with IPIA to the agency head and to the (1) Senate
Homeland Security and Government Affairs Committee, (2) House Committee on Oversight
and Governmental Reform, (3) Comptroller General, and (4) Controller of the Office of
Management and Budget. As you know, the “agency head” for TVA is the TVA Board and,
thus, the reason each of the Board members is receiving this report. The results of our audit
were favorable for TVA in that we found TVA was in compliance with IPIA requirements that
were applicable to TVA. There is no action required of you as a result of this report.

BACKGROUND

As required by IPIA (as amended by the Improper Payments Elimination and Recovery Act
[IPERA] of 2010), we performed a review of TVA’s Improper Payment Information Report –
FY 2011. The Office of Management and Budget guidance requires each agency Inspector
General to review agency improper payment reporting in the agency’s annual Performance
and Accountability Report (PAR) or Annual Financial Report (AFR) and accompanying
materials to determine if the agency is in compliance with IPIA. In particular, to determine
compliance with IPIA, the agency Inspector General should review the agency’s PAR or
AFR (and any accompanying information) for the most recent FY. Compliance with IPIA
means the agency has:

   Published a PAR or AFR for the most recent FY and posted that report and any
    accompanying materials required by the Office of Management and Budget on the
    agency Web site.
   Conducted a program specific risk assessment for each program or activity that
    conforms to Section 3321 of Title 31 U.S.C. (if required).
   Published improper payment estimates for all programs and activities identified as
    susceptible to significant improper payments under its risk assessment (if required).
   Published programmatic corrective action plans in the PAR or AFR (if required).
       WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                     TVA RESTRICTED INFORMATION
Those listed
Page 2
March 12, 2012



    Published, and met, annual reduction targets for each program assessed to be at risk
     and measured for improper payments.
    Reported a gross improper payment rate of less than 10 percent for each program and
     activity in which an improper payment estimate was obtained and published in the PAR
     or AFR.
    Reported information on its efforts to recapture improper payments.

For information pertaining to our objective, scope, and methodology, see the Attachment.

FINDINGS

Two significant conditions impacted our determination of TVA’s compliance with IPIA
requirements.

    First, as a government corporation, TVA issues an Annual Management Report rather
     than a PAR or AFR.
    Second, TVA’s improper payments fell below IPIA threshold amounts. IPIA defines
     significant improper payments as $10 million of all program activity payments and
     2.5 percent of program outlays. TVA’s improper payments totaled $7,446,226 million
     and 0.074 percent of program outlays.1

As a result of not issuing a PAR or AFR and being under the IPIA improper payments
thresholds, TVA was largely exempt from the requirements of IPIA. In our opinion, TVA
was only required to comply with Item No. 2 (conduct a program specific risk assessment),
noted on the previous page. We reviewed the process used by TVA to identify programs
susceptible to improper payments and noted it is in compliance with IPIA guidance. TVA
performed a risk assessment for FY 2011, and its primary programs susceptible to
improper payments are its supply chain programs. TVA calculated the total amount of
payments subject to review equaled $10,098,354,626.

                                 -        -        -        -        -        -




1
    As of the date of its IPIA report, TVA reported it had recaptured $6,524,681 of the total improper payments
    of $7,446,226 identified for FY 2011. TVA also identified $430 of uncollectible improper payments.

                                     TVA RESTRICTED INFORMATION
Those listed
Page 3
March 12, 2012



Recipients of this report are responsible for safeguarding it to prevent publication or other
improper disclosure. We have issued a separate report to TVA concerning suggestions
for improving TVA’s process for complying with IPIA. If you have any questions, please
contact Ricky L. Taylor, Project Manager, at (865) 633-7370 or Rick C. Underwood,
Director, Corporate Governance and Finance Audits, at (423) 785-4824.




Richard W. Moore



William Sansom, TVA Board
Marilyn Brown, TVA Board
William Graves, TVA Board
Barbara Haskew, TVA Board
Richard Howorth, TVA Board
Neil McBride, TVA Board

The Honorable Joe Lieberman, Chairman
Committee on Homeland Security and Governmental Affairs
340 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Susan M. Collins, Ranking Member
Committee on Homeland Security and Governmental Affairs
413 Dirksen Senate Office Building
Washington, DC 20510

The Honorable Darrell E. Issa, Chairman
Committee on Oversight and Government Reform
2157 Rayburn House Office Building
Washington, DC 20515

The Honorable Elijah Cummings, Ranking Member
Committee on Oversight and Government Reform
2471 Rayburn House Office Building
Washington, DC 20515

The Honorable Gene Dodaro
Comptroller General of the United States
Government Accountability Office
441 G Street, NW
Washington, DC 20548




                              TVA RESTRICTED INFORMATION
Those listed
Page 4
March 12, 2012



Mr. Jeffrey Zients, Acting Director
Office of Management and Budget
1650 Pennsylvania Avenue
Room 216
Washington, DC 20503

Mr. Daniel I. Werfel
Controller, Office of Federal Financial Management
Office of Management and Budget
725 17th Street, NW
Washington, DC 20503

Attachment
cc (Attachment):
     Mr. Flavio Menasce
     Office of Federal Financial Management
     Office of Management and Budget
     725 17th Street, NW
     Washington, DC 20503

    Steve Byone, WT 4B-K
    Micheal B. Fussell, WT 9B-K
    Joseph J. Hoagland, WT 7B-K
    Tom Kilgore, WT 7B-K
    John M. Thomas III, MR 6D-C
    Denise M. Thompson, WT 4A-K
    Diane T. Wear, WT 4B-K
    Robert B. Wells, WT 9B-K
    OIG File No. 2011-14340




                             TVA RESTRICTED INFORMATION
                                                                                          ATTACHMENT
                                                                                             Page 1 of 1




OBJECTIVE, SCOPE, AND METHODOLOGY

As part of our annual audit plan, we assessed the Tennessee Valley Authority’s (TVA)
Improper Payment Information Report – FY 2011 to determine whether TVA was in
compliance with the Improper Payments Information Act of 2002. Our audit scope was
TVA’s Improper Payment Information Report – FY 2011 and supporting documentation.

In general, to achieve our objective, we:

    Interviewed Financial Services personnel to gain an understanding of the process and
     methodology used to calculate and report improper payments for FY (fiscal year) 2011.
    Obtained and reviewed TVA’s Improper Payment Information Report – FY 2011.
    Obtained and reviewed legislative guidance related to improper payments, such as
     (1) the Improper Payments Information Act (IPIA) of 2002, (2) the Improper Payments
     Elimination and Recovery Act (IPERA) of 2010, and (3) Appendix C of the Office of
     Management and Budget (OMB) Circular A-123.
    Requested and obtained opinions pertaining to TVA’s legal obligations from both TVA’s
     Office of the General Counsel and the Office of the Inspector General’s Legal Counsel
     concerning TVA’s compliance requirements with regard to IPIA/IPERA and Appendix C
     of the OMB Circular A-123. In addition, we obtained guidance from an OMB
     representative concerning TVA’s compliance requirements with regard to IPIA/IPERA
     and Appendix C of the OMB Circular A-123.
    Compared TVA’s IPIA report to legislative guidance to determine compliance.
    Reviewed a judgmental sample of improper payments consisting of approximately
     73 percent of the total dollar amount of reported improper payments.
    Reviewed a judgmental sample of recaptured improper payments consisting of
     approximately 59 percent of the total dollar amount of reported recaptured amounts.
    Selected a random sample of 10 items from TVA’s sample of 106 payments that TVA
     sampled as part of the IPIA requirements. We reviewed the support for the 10 items to
     determine if TVA’s assumptions regarding whether or not the payment was paid
     correctly were reasonable.1

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




1
    We judgmentally selected each of the samples to attain additional comfort that the improper payment
    amounts reported by TVA were reasonable. Our samples were not intended to allow for any type of
    projections to be made.

                                   TVA RESTRICTED INFORMATION
